1a
APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
EL PASO DIVISION
EL PASO COUNTY, TEXAS
and BORDER NETWORK
FOR HUMAN RIGHTS,
Plaintiffs,
v.
DONALD J. TRUMP, in his
official capacity as President of the United States of
America, et al.,
Defendants.

§
§
§
§
§
§
§
§
§
§
§
§

EP-19-CV66-DB

MEMORANDUM OPINION
On this day, the Court considered Plaintiffs El
Paso County, Texas, (“El Paso County”) and Border
Network for Human Right’s (“BNHR”) (collectively,
“Plaintiffs”) “Motion for Summary Judgment or, in
the alternative, a Preliminary Injunction” (“Motion”), filed in the above-captioned case on April 25,
2019. On June 10, 2019, Defendants Donald J.
Trump, Patrick M. Shanahan, Kirstjen M. Nielsen,
David Bernhardt, Steven T. Mnuchin, William Barr,
John F. Bash, and Todd T. Semonite (collectively,
“Defendants”) filed their “Memorandum in Support
of the Government’s Cross-Motion to Dismiss or for
Summary Judgment, and Opposition to Plaintiffs’
Motion for Summary Judgment and a Preliminary
Injunction” (“Cross-Motion”). On July 10, 2019,

2a
Plaintiffs filed a Reply. The Defendants filed their
Reply on July 31, 2019. The Court held a hearing on
the Motion and Cross-Motion on August 29, 2019.
On September 10, 2019, Plaintiffs filed their
“Supplemental Brief in Light of Notice of Decision
by the Department of Defense to Authorize Border
Barrier Projects Pursuant to 10 U.S.C. § 2808.” On
September 20, 2019, Defendants filed their “Supplemental Brief Addressing Border Barrier Construction Pursuant to 10 U.S.C. § 2808.” On September
24, 2019, Plaintiffs filed their Reply. After due consideration, the Court is of the opinion that the
Plaintiffs’ Motion shall be granted.
BACKGROUND
This case presents questions regarding whether
the proposed plan for funding border barrier construction exceeds the Executive Branch’s lawful authority under the Consolidated Appropriations Act
(“CAA”), the Appropriations Clause of the Constitution, the Military Construction Act 10 U.S.C. § 2808
(“2808”), the Funding for Counterdrug Activities 10
U.S.C. § 284 (“284”), and the National Emergency
Act (“NEA”).
In 2017, President Trump requested $999 million in congressional appropriations for “the first installment of the border wall.” Budget Request, Pl.’s
Mot. 5, ECF No. 55-6. A Republican-controlled Congress instead provided the Department of Homeland Security (“DHS”) with $341.2 million “to replace approximately 40 miles of existing primary
pedestrian and vehicle border fencing along the

3a
southwest border.” CAA, Pub. L. No. 115-31, 131
Stat. 135, 434 (2017). In 2018, President Trump requested $1.6 billion in congressional appropriations
for 74 miles of new or replacement border wall. FY
2018 Budget in Brief, Pl.’s Mot. 3, ECF No. 55-7. In
response, Congress appropriated $1.571 billion for
new border security technology and new and replacement fencing in specified areas on the southern border. CAA, Pub. L. No. 115-141 (2018) (to be
printed at 132 Stat. 348, 616).
In January 2019, President Trump formally requested $5.7 billion for fiscal year 2019 “for construction of a steel barrier for the Southwest border.” Letter to Appropriations Chairman 1, ECF No.
55-28. On February 14, 2019, Congress passed the
2019 CAA. Pub. L. No. 116-6 (2019) (to be printed at
133 Stat. 13). The CAA provides $1.375 billion for
“the construction of primary pedestrian fencing” in
“the Rio Grande Valley Sector.” CAA § 230(a)(1).
And it states that none of the funds appropriated by
the Act can be used “for the construction of pedestrian fencing” in any other areas of the border. Id. §
231. A component of the CAA, § 739 of the Financial
Services and General Government Appropriations
Act, states:
None of the funds made available in this or
any other appropriations Act may be used to
increase, eliminate, or reduce funding for a
program, project, or activity as proposed in
the President’s budget request for a fiscal
year until such proposed change is subsequently enacted in an appropriation Act, or
unless such change is made pursuant to the

4a
reprogramming or transfer provisions of this
or any other appropriations Act.
Pub. L. No. 116-6, div. D, § 739. On February 15,
2019, President Trump signed the CAA into law.
Also on February 15, 2019, the President issued
a proclamation declaring that a national emergency
exists at the southern border. See Presidential Proclamation on Declaring a National Emergency Concerning the Southern Border of the United States,
2019 WL 643819, at *1 (Feb. 15, 2019) (“Proclamation”).
The proclamation itself states:
The current situation at the southern border presents a border security and humanitarian crisis that threatens core national security interests and constitutes a national
emergency. The southern border is a major
entry point for criminals, gang members, and
illicit narcotics. The problem of largescale unlawful migration through the southern border
is longstanding, and despite the executive
branch’s exercise of existing statutory authorities, the situation has worsened in certain respects in recent years. In particular, recent
years have seen sharp increases in the number of family units entering and seeking entry
to the United States and an inability to provide detention space for many of these aliens
while their removal proceedings are pending.
If not detained, such aliens are often released
into the country and are often difficult to remove from the United States because they fail

5a
to appear for hearings, do not comply with orders of removal, or are otherwise difficult to
locate. In response to the directive in my April
4, 2018, memorandum and subsequent requests for support by the Secretary of Homeland Security, the Department of Defense has
provided support and resources to the Department of Homeland Security at the southern
border. Because of the gravity of the current
emergency situation, it is necessary for the
Armed Forces to provide additional support to
address the crisis.
Proclamation No. 9844, 84 Fed. Reg. 4,949.
In addition to declaring a national emergency,
the President announced a plan, to be carried out by
Defendant Acting Secretaries of Defense and Homeland Security, to use funds that Congress appropriated for other purposes to build a border wall. Most
relevant, President Trump directed those Acting
Secretaries to use: (1) $2.5 billion of the Department
of Defense (“DOD”) funds appropriated for Support
for Counterdrug Activities under § 284; and (2) $3.6
billion of DOD funds appropriated for “military construction projects” under § 2808. President Donald
J. Trump’s Border Security Victory, White House
Fact Sheet (Feb. 15, 2019) (“Fact Sheet”),
https://www.whitehouse.gov/briefings-statements/president-donald-j-trumps-border-securityvictory/.
On September 3, 2019, Defendants gave the
Court notice that the DOD has made a final determination to build eleven border wall projects using

6a
$3.6 billion in military construction funds under 10
U.S.C. § 2808. Notice of DOD Decision, ECF No.
112. And on September 5, 2019, Defendants gave
notice identifying the military construction projects
that Congress had already appropriated money for
that will now lose funding in order to build those
eleven wall projects. Supplemental Notice of DOD
Decision, ECF No. 114. Most relevant for this case:
the DOD will divert $20 million away from a
planned military construction project at Fort Bliss
in El Paso County, and one of the new wall projects
will take place in southern New Mexico, in El Paso
County’s close vicinity. 2808 Deferrals in United
States Territories 2, ECF No. 114-1.
LEGAL STANDARDS
The parties have filed cross-motions for summary judgment. Rule 56 of the Federal Rules of
Civil Procedure mandates entry of summary judgment “if the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a); see Celotex Corp. v. Catrett, 477 U.S. 317,
322-23 (1986); Curtis v. Anthony, 710 F.3d 587, 594
(5th Cir. 2013). Defendants agree with Plaintiffs
that this case presents questions of law for the
Court to resolve that do not require further factual
development through discovery. In these circumstances, the Court should enter either summary
judgment for Defendants based on the parties’ moving papers or dismiss the First Amended Complaint
under Federal Rule of Civil Procedure 12.

7a
Furthermore, the Court must dismiss a case under Federal Rule of Civil Procedure 12(b)(1) for lack
of subject matter jurisdiction if it lacks the statutory or constitutional power to adjudicate the case.
Home Builders Ass’n of Miss., Inc. v. City of Madison, 143 F.3d 1006, 1010 (5th Cir. 1998). The party
asserting subject-matter jurisdiction has the burden of proving it exists by a preponderance of the
evidence. See New Orleans & Gulf Coast Ry. Co. v.
Barrois, 533 F.3d 321, 327 (5th Cir. 2008).
To survive a motion to dismiss under Civil Rule
12(b)(6), “a complaint must contain sufficient factual matter, accepted as true, to state a claim to relief that is plausible on its face.” Ashcrofi v. Iqbal,
556 U.S. 662, 678 (2009) (citation omitted). A complaint that “tenders naked assertions devoid of further factual enhancement” is insufficient. Id. (internal citation and alteration omitted). At the summary-judgment stage, plaintiffs “must ‘set forth’ by
affidavit or other evidence ‘specific facts” to establish their standing. Lujan v. Def of Wildlife, 504
U.S. 555, 561 (1992) (quoting Fed. R. Civ. P. 56(e)).
When evaluating plaintiffs’ standing, courts must
“take as true” the factual evidence plaintiffs submit.
McCardell v. Dep’t of Hous. & Urban Dev., 794 F.3d
510, 520 (5th Cir. 2015); see Lujan, 504 U.S. at 561.
Finally, Plaintiffs have requested a preliminary
injunction, which is a matter of equitable discretion
and is “an extraordinary remedy that may only be
awarded upon a clear showing that the plaintiff is
entitled to such relief.” Winter v. Nat. Res. Def
Council, Inc., 555 U.S. 7, 22 (2008). “A plaintiff
seeking preliminary injunctive relief must establish

8a
that [it] is likely to succeed on the merits, that [it]
is likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips
in [its] favor, and that an injunction is in the public
interest.” Id. at 20.
ANALYSIS
Plaintiffs make several claims in their Amended
Complaint and seek summary judgment, as well as
permanent declaratory and injunctive relief, because the President’s Proclamation is unlawful.
Considering the Supreme Court’s recent decision in
Donald J. Trump, President of the United Sates, et
al. v. Sierra Club, et al., the Court will not further
address either parties’ arguments regarding the
statutory authority of DOD Secretary Shanahan to
spend under § 8005. See No. 19A60, 2019 WL
3369425, at*l (2019). The Supreme Court granted a
stay in Defendants’ favor and reasoned “that the
Government has made a sufficient showing at this
stage that the plaintiffs have no cause of action to
obtain review of the Acting Secretary’s compliance
with [§] 8005.” Id. The DOD Appropriations Act, §
8005, authorizes the Secretary of the Department of
Defense to transfer the $2.5 billion for § 284 Support
for Counterdrug Activities. Thus, the Court finds
Plaintiffs’ argument that the DOD Secretary exceeded his statutory authority under § 284 unviable.
In addition, the Court will not address the Plaintiffs’ arguments regarding the Treasury Forfeiture
Funds, as Plaintiffs abandoned these claims at oral
argument. Hr’g Tr. 67-68, ECF No. 115.

9a
Apart from the aforementioned § 284 and Treasury Forfeiture Funds arguments, Plaintiffs argue
that the Proclamation exceeded the President’s authority under the National Emergency Act (“NEA”).
Mot. 19, ECF No. 54. Alternatively, according to
Plaintiffs, the NEA is unconstitutional if it authorizes the President’s Proclamation because it runs
afoul of the nondelegation doctrine and the Take
Care Clause of the Constitution. Id. at 26. Next, the
Plaintiffs assert that Defendants’ use of the funds
to build a border wall violates the CAA, the Appropriations Clause of the Constitution, and the Administrative Procedure Act (“APA”). Id. at 33, 4546.
Defendants counter that all Plaintiffs’ claims fail
because Congress intended to preclude judicial review of national emergency declarations, that the
challenge presents a nonjusticiable political question, and that Plaintiffs cannot obtain equitable relief against the President. Cross-Mot. 20 and 23,
ECF No. 95. Regarding Plaintiffs’ alternative argument, Defendants argue that the nondelegation
challenge to the NEA is meritless. Id. at 30. According to Defendants, Plaintiffs’ claims based on the
APA are unsuccessful because they have not satisfied the APA’s requirements for review of agency action and they fail on the merits. Id. at 44 and 49.
Finally, Defendants argue that Plaintiffs fail to
state a claim under the CAA because nothing in the
CAA modifies or disables the use of the permanent
statutes at issue in this case. Id. at 54.

10a
Prior to the Court’s discussion of the merits of
these claims and counterclaims, the Court will address standing. Plaintiffs claim they have standing
because El Paso County is the “object” of the Defendants’ Proclamation to build a border wall in the
community. Mot. 10, ECF No. 54. Furthermore, El
Paso County has suffered reputational and economic injuries. Id. at 11-13. For its part, BNHR asserts organizational standing. Id. at 14.
Defendants counter, first, that Plaintiffs cannot
challenge either the Proclamation or § 284 because
the alleged reputational harm is not an injury in
fact, it is not fairly traceable to the Defendants’ action, it is too speculative, and it is not redressable
by a favorable outcome. Cross-Mot. 35-39, ECF No.
95. Second, according to Defendants, the pecuniary
injuries are not sufficiently concrete or imminent,
and even if they were, they are not traceable to the
Proclamation and subsequent actions. Id. at 40.
Third, Plaintiffs’ cannot establish standing to sue
under § 2808. Id. at 34.
Finally, Defendants argue that BNHR lacks
standing because there is no nexus between the organizational activities and the Defendants’ conduct,
rather BNHR relies on an “abstract social interest.”
Id. at 41-42. According to Defendants, not only is
“stigmatization” not a cognizable injury for Article
III standing, but other alleged harm to the quality
of life of BNHR members is not sufficiently concrete
or imminent. Id. at 43. As discussed below, the
Court finds that the Plaintiffs do have standing and
are entitled to summary judgment based on their
CAA claim.

11a
I. PLAINTIFFS HAVE STANDING.
To establish Article III standing, “a plaintiff
must show (1) it has suffered an ‘injury in fact’ that
is (a) concrete and particularized and (b) actual or
imminent, not conjectural or hypothetical; (2) the
injury is fairly traceable to the challenged action of
the defendant; and (3) it is likely, as opposed to
merely speculative, that the injury will be redressed
by a favorable decision.” Friends of the Earth, Inc.
v. Laidlaw Envtl. Servs., Inc., 528 U.S. 167, 180-81
(2000).
At the summary judgment stage, plaintiffs “must
‘set forth’ by affidavit or other evidence ‘specific
facts” to establish their standing. Lujan, 504 U.S. at
561 (quoting Fed. R. Civ. P. 56(e)). When evaluating
plaintiffs’ standing, courts must “take as true” the
factual evidence that plaintiffs submit. McCardell,
794 F.3d at 520; see Lujan, 504 U.S. at 561. Thus,
El Paso County has standing, and BNHR has standing both as an organization and because its members have suffered a concrete injury.
1. El Paso County Has Standing.
El Paso County has standing to sue Defendants
because they are the “object” of the border wall construction, and they have suffered concrete reputational and economic injury. Although either reputational or economic injury alone would suffice to justify El Paso County’s day in federal court, the Court
will address the viability of each in turn.
a. El Paso County Is the Object of the Proclamation to Build a Border Wall.

12a
When a plaintiff “challeng[es] the legality of government action,” the “nature and extent of facts that
must be averred” to establish standing “depends
considerably upon whether the plaintiff is [itself] an
object of the action” at issue. Lujan, 504 U.S. at 56162. If it is, “there is ordinarily little question that
the action. . . has caused [it] injury, and that a judgment preventing. . . the action will redress [that injury].” Id.; see Duarte ex rel. Duarte v. City of Lewisville, 759 F.3d 514, 518 (5th Cir. 2014) (“It follows
from Lujan that if a plaintiff is an object of a government regulation, then that plaintiff ordinarily
has standing to challenge that regulation.”)
The Supreme Court in Lujan held the plaintiffs
lacked standing to challenge the Secretary of the Interior’s refusal to extend Endangered Species Act
protections to animals abroad. Lujan, 504 U.S. at
562. The Supreme Court dismissed the case because
the individual plaintiffs expressed mere “some day
intentions” and failed to produce evidence on summary judgment of “concrete plans” to visit the endangered animals abroad. Id. at 564-65 (internal
quotation marks omitted). In contrast, the Fifth Circuit held that a plaintiff, a registered child sex offender, was the target of a local ordinance restricting where registered child sex offenders could live.
Duarte, 759 F.3d at 518. There the plaintiff submitted evidence that, taken in the light most favorable
to him, established that he had “concrete plans” to
eventually reside in areas impacted by the local ordinance, unlike the plaintiffs in Lujan. Id.
The President’s Proclamation is aimed at building a border wall along the southern border between

13a
El Paso County and Mexico. Thus, unlike the plaintiffs in Lujan who had only intentions of visiting a
targeted area without any concrete plans, El Paso
County is the “object” or target of the government
action. Even more clearly than the plaintiff in Duarte, who merely had concrete plans to eventually
reside in an impacted area, El Paso County itself is
the impacted area of the government’s action. The
Court agrees with the Plaintiffs that because El
Paso County is the object of the Proclamation, it has
standing to bring this challenge.
b. El Paso County’s Reputation Has Been Injured.
Specifically, El Paso County has shown an injury
to its reputation and has had to take affirmative
steps to avoid harm. According to El Paso County
Judge Samaniego (“Judge Samaniego”), El Paso
County takes pride in its “reputation as a safe place
to live, work, and visit,” and as a vibrant “bilingual,
bi-national, multicultural” community. Samaniego
Decl. ¶¶ 3-4, ECF No. 55-26. But Defendants’ actions have “falsely told the world the exact opposite:” “that El Paso County and the Southern border
are crime-ridden and dangerous, that [its] immigrant community comprises criminals and drug
traffickers. . ., that [its] proximity to Mexico is an
existential threat, and that [it] can be rescued only
through the blight of massive wall construction and
militarization.” Id. ¶ 8; see also id. ¶ 10 (“I have already heard personally from people who have a false
impression that El Paso County is a dangerous
place and who do not want to come here [because of
the President's Proclamation].”). And according to

14a
Chief Administrator of El Paso County Keller (“Ms.
Keller”), Defendants' actions amount to a message
“transmitted all over the world” that “all of [the
County’s] strengths are actually weaknesses” and
that the County is “so endangered by immigrants
and [its] closeness to Mexico that [it] need[s] a wall
to protect [it].” Keller Decl. ¶ 6, ECF No. 55-25. Because of Defendants’ actions, Ms. Keller now must
“not only promot[e] El Paso’s image, but actively defend[] it.” Id. As Judge Samaniego explained, “every
meeting anyone promoting El Paso has now must
include extra efforts to persuade people that El Paso
County is a good place to invest in and visit.” Samaniego Decl. ¶ 11, ECF No. 55-25.
El Paso County asserts that they have standing
because “injury to reputation can constitute a cognizable injury sufficient for Article III standing.”
Foretich v. United States, 351 F.3d 1198, 1211 (D.C.
Cir. 2003); see Walker v. City of Mesquite, 129 F.3d
831, 832-33 (5th Cir. 1997). “[W]here reputational
injury derives directly from an unexpired and unretracted government action, that injury satisfies the
requirements of Article III standing to challenge
that action.” Foretich, 351 F.3d at 1213. Even “the
need to take . . . affirmative steps to avoid the risk
of harm to [one’s] reputation constitutes a cognizable injury.” Meese v. Keene, 481 U.S. 465, 475 (1987);
see also Monsanto Co. v. Geertson Seed Farms, 561
U.S. 139, 154 (2010) (finding standing based on
plaintiffs’ need “to take certain measures to minimize the likelihood” of harm).
In Meese, for instance, the Supreme Court held
that a plaintiff had standing, based on reputational

15a
injury, to challenge a federal law classifying films
he wished to show as “political propaganda.” Id. at
472-77. By forcing the plaintiff to “choose between
exhibiting the films and incurring the risk that public perception of this [legal] scheme will harm [his]
reputation,” the law inflicted concrete injury. Id. at
477. And in NCAA v. Governor of New Jersey, which
the Fifth Circuit has favorably cited for its standing
analysis (see Texas v. United States, 809 F.3d 134,
156 (5th Cir. 2015)), the court held that sports
leagues had standing, based on reputational injury,
to challenge a state law legalizing sports gambling.
730 F.3d 208, 220 (3d Cir. 2013), rev’d on other
grounds sub nom., 138 S. Ct. 1461 (2018). The
leagues had shown cognizable reputational injury
because “they are harmed by their unwanted association with an activity they (and large portions of
the public) disapprove of—gambling.” Id.
However, “[s]tanding is not available to just any
resident of a jurisdiction to challenge a government
message without a corresponding action about a
particular belief.” Barber v. Bryant, 860 F.3d 345,
355 (5th Cir. 2017) (rejecting “purported stigmatic
injury”); see also Ingebretsen v. Jackson Pub. Sch.
Dist., 88 F.3d 274, 284 (5th Cir. 1996) (“[N]o parent
ought to be allowed to sue over a school policy with
which he disagrees unless the policy has demonstrably injured him or his child.”); Chaplaincy of Full
Gospel Churches v. US. Navy (In re Navy Chaplaincy), 534 F.3d 756, 764-65 (D.C. Cir. 2008) (Kavanaugh, J.) (allowing standing based on offense to
a government message would “eviscerate well-settled standing limitations”). And to assert standing,

16a
more is required than alleging a “possible future injury.” Clapper v. Amnesty Int’l USA, 568 U.S. 398,
408 (2013). Finally, the Court cannot indulge “speculation about ‘the unfettered choices made by independent actors not before the court” that cannot
support standing. Id. at 410, 414 n. 5 (quoting
Lujan, 504 U.S. at 562).
The Court agrees with Plaintiffs that the Proclamation and subsequent government actions of obtaining funding from various sources to build a border wall between El Paso County and Mexico incurs
the risk of harm to El Paso County’s reputation.
Like the leagues in NCAA, El Paso County has
shown cognizable reputational injury on the ground
that “they are harmed by their unwanted association with an activity they (and large portions of the
public) disapprove of—” the construction of a border
wall through executive action. 730 F.3d at 220.
Defendants’ attempt to distinguish Meese and
NCAA which each involved “self-effectuating” statutes from the current case, which involves the Proclamation as a catalyst for the statutory authority
that appropriates the construction funds, is unpersuasive. Even though the Proclamation is not selfeffectuating, it directly authorizes actions under
other statutes that give rise to an injury in fact.
Like Foretich, reputational injury derives from an
unexpired and unretracted government action and
El Paso County’s “need to take. . . affirmative steps
to avoid the risk of harm to [its] reputation constitutes a cognizable injury.” 351 F.3d at 1213.

17a
Furthermore, combined with the above-reasoned
conclusion that El Paso County is the “object” of the
government action, it is not speculative that El Paso
has suffered an injury in fact to its reputation that
is traceable to the Proclamation. See supra 9. El
Paso County submitted affidavit testimony from
Ms. Keller and Judge Samaniego who testified to
taking affirmative steps to avoid the risk of harm to
El Paso County’s reputation. See supra 10-11.
Unlike Clapper with its “highly attenuated chain
of possibilities” involving five increasingly—speculative logical leaps between the government action
under the Foreign Intelligence Surveillance Act and
the fear that their communication with foreign contacts would be intercepted in the future, El Paso
County’s injury is far more direct. Clapper, 568 U.S.
at 408. El Paso County is not indulging in speculation about the unfettered choices of unknown investors or tourists, rather El Paso County’s reputation
has been injured because, as in Meese, the risk of
harm to public perception is enough to constitute a
concrete injury.
Finally, the Court disagrees with the Defendants’ argument that El Paso County’s reputational
injury is self-inflicted. See Resp. 38, ECF No. 95 (citing Clapper, 568 U.S. at 408; Zimmerman v. City of
Austin, 881 F.3d 378, 389 (5th Cir. 2018); Assoc. for
Retarded Citizens of Dallas v. Dallas Cnty. Mental
Health & Mental Retardation Ctr. Rd. of Trustees,
19 F.3d 241, 244 (5th Cir. 1994)). Again unlike Clapper where the standing inquiry was particularly rigorous because the court was asked to find the ac-

18a
tions of the other branches of government unconstitutional, here the Court will not reach the constitutionality of the NEA nor whether use of the funds to
build a border wall violates the Appropriations
Clause.
Second, the Fifth Circuit in Association for Retarded Citizens of Dallas held that redirection of an
organization's “resources to litigation and legal
counseling in response to actions or inactions of another party is insufficient to impart standing upon
the organization.” 19 F.3d at 244. Here Defendants
have not submitted any argument or evidence regarding El Paso County’s redirection of resources to
litigation or legal counseling expenses. See generally Def.’s Cross-Mot., ECF No. 95. Finally, unlike
the plaintiff in Zimmerman whose desire to solicit
funds did not establish an intent to accept funds
above the proscribed limit in the challenged law, El
Paso County has made concrete plans with objective
evidence demonstrating an investment of time and
resources to combat the Proclamation. 881 F.3d at 3
89-90; see, e.g., Keller Decl. ¶¶ 9-11, ECF No. 55-25;
Samaniego Decl. ¶¶ 11-12, ECF No. 55-26 (“I have
spent approximately 30% of my time [as County
Judge] . . . to defending El Paso’s reputation.”). El
Paso County’s reputational injury—though alone
enough for standing—is also intimately tied to “a direct pecuniary injury that generally is sufficient to
establish injury-in-fact” to be addressed in the next
section. K.P. v. LeBlanc, 627 F.3d 115, 122 (5th Cir.
2010) (quotations omitted).

19a
c. El Paso County Has Suffered Economic
Harm.
Any drop in the $4 million tax revenue El Paso
County earns from tourism “would significantly
damage the county’s financial health.” Samaniego
Decl. ¶ 5, ECF No. 55-26). Ms. Keller explained,
“[t]here is nothing more detrimental to a drive to
bring in tourists than the perception that a community is chaotic and dangerous and that the tourists[’]
access to historical and scenic destinations will be
impeded by construction.” Keller Decl. ¶ 8, ECF No.
55-25; see also Samaniego Decl. ¶ 6, ECF No. 55-26
(“[T]he President’s Proclamation declaring an emergency at the Southern border is a serious threat to
both tourism and economic development because of
the false and negative impression of El Paso that it
creates.”). Judge Samaniego likewise emphasized
that recent meetings with “local business leaders”
have indicated that Defendants’ actions are “generating fears of potential investors that the community will be mired in a long-term state of chaos that
includes. . . violent crime, the blight of construction,
and impediments to crossing back and forth across
the border.” Samaniego Decl. ¶ 11, ECF No. 55-26.
When a plaintiff suffers “a direct pecuniary injury” that, too, is generally “sufficient to establish
injury-in-fact.” K.P. LeBlanc, 627 F.3d 115, 122 (5th
Cir. 2010); see also Texas Democratic Party v. Benkiser, 459 F.3d 582, 586 (5th Cir. 2006) (“economic
injury is a quintessential injury upon which to base
standing”). For example, a municipality’s “diminish[ed] . . . tax base” constitutes injury in fact. See
Gladstone Realtors v. Village of Bellwood, 441 U.S.

20a
91, 110-11 (1979). That is equally true where the
economic injury stems from the “loss of a non-illusory opportunity” to obtain “a benefit.” Ecosystem
Investment Partners v. Crosby Dredging, L.L.C., 729
F. App’x 287, 292 (5th Cir. 2018); see also Czyzewski
v. Jevic Holding Corp., 137 S. Ct. 973, 983 (2017)
(finding standing where challenged action deprived
party of “a chance to obtain a settlement that respected [its] priority” in bankruptcy).
Even if we were to view Judge Samaniego and
Ms. Keller’s current fears of construction and chaos
as unpersuasive, more economic harm is “certainly
impending” and may constitute an injury in fact despite having “not yet materialized.” SBA v.
Driehaus, 573 U.S. 149, 158 (2014) (quotations
omitted); LeBlanc, 627 F.3d at 122. The longer the
President’s Proclamation remains in effect, the
more El Paso County’s reputation will be tarnished
in the eyes of tourists and developers, and the more
hours El Paso County officials will have to devote to
combating negative messaging, as opposed to “meeting directly with business leaders to bring business
to El Paso.” Samaniego Decl. ¶ 12, ECF No. 55-26.
Moreover, Defendants will divert $20 million
away from a planned military construction project
at Fort Bliss in El Paso County, and one of the new
wall projects will take place in southern New Mexico, in El Paso County’s close vicinity. Supplemental
Notice of DOD Decision 3, ECF No. 114. “Fort Bliss
is the lifeblood of the El Paso economy,” contributing billions of dollars and creating thousands of
jobs. Samaniego Decl. ¶ 15, ECF. No. 55-26. Losing
funds that had been appropriated for use at Fort

21a
Bliss “creates the imminent prospect of economic
harm to El Paso County.” Id. ¶ 16. That loss of funds
also represents a missed opportunity to “obtain a
benefit,” which can also suffice to show injury in
fact. N.E. Associated Gen. Contractors v. City of
Jacksonville, 508 U.S. 656, 666 (1993).
d. Causation and Redressability Have Been
Shown.
While Defendants admit that negative impressions of the southern border or El Paso County are
associated with the Proclamation, they argue that
El Paso County cannot demonstrate causation.
Cross-Mot. 39, ECF No. 95. Nor can El Paso County
show how a favorable decision will redress its injury
of lost business and tourism. Id.
However, the causation element is satisfied because the County’s reputational and economic injuries are “fairly traceable” to Defendants’ actions.
Bennett v. Spear, 520 U.S. 154, 167 (1997). The
President’s Proclamation expressly declares a “national emergency” on the “southern border”—including El Paso County—based on its status as a
“major entry point for criminals, gang members,
and illicit narcotics.” Proclamation 1, ECF 55-14.
And Defendants’ desired deployment of the military
to build a border wall reinforces El Paso County’s
image as dangerous and uninviting, while threatening to increase noise and congestion in the area. Id.;
see also To Secure the Border and Make America
Safe Again, We Need to Deploy the National Guard,
Department of Homeland Security (Apr. 4, 2018),

22a
https://www.dhs.gov/news/2018/04/04/secure-border-and-make-america-safe-again-we-need-deploynational-guard.
As El Paso County officials explained, these precise actions bear a “causal connection” to the
County’s reputational and economic injuries described above. Driehaus, 573 U.S. at 158; see Keller
Decl. ¶ 6 (“The President's Proclamation. . . is an
official government statement that damages El
Paso County’s ability to compete for business investment and tourism.”), ¶ 10 (“Because of the President’s Proclamation, we are now in the process of
strategizing how to combat a falsely negative image.”), ¶¶ 12-13 (impending wall construction will
create a “massive construction zone,” deterring
“tourism and business development”), ECF No. 5525; Samaniego Dec. ¶ 10 (“The President’s Proclamation has falsely told the world the exact opposite
of who we are and what we promote”), ¶ 16 (diversion of funds from Fort Bliss “creates the imminent
prospect of economic harm”), ECF No. 55-26.
Finally, where, as here, a plaintiff challenges
government action, “[c]ausation and redressability
typically overlap as two sides of a causation coin.”
Carpenters Indus. Council v. Zinke, 854 F.3d 1, 6 n.1
(D.C. Cir. 2017). “After all, if a government action
causes an injury, enjoining the action usually will
redress that injury.” Id. That is true here. As to El
Paso County’s reputational injuries, enjoining Defendants’ actions will allow El Paso County officials
to refocus their resources on improving tourism and
commerce, not defending El Paso County against
Defendants’ attacks. See Foretich, 351 F.3d at 1214

23a
(invalidating government action from which “reputational injury. . . derives” “provide[s] meaningful
relief”). And as to El Paso County’s pecuniary injuries, enjoining Defendants’ actions will help restore
El Paso County's image in the eyes of tourists and
investors and forestall disruptive border wall construction. Accordingly, El Paso County has standing
to bring its claims.
2. BNHR Has Standing.
BNHR is a community organization headquartered in El Paso, Texas. Decl. of Fernando Garcia
(“Garcia Decl.”) ¶¶ 2-3, ECF No. 55-27. It consists of
about 5,000 members who live and work in west
Texas, metropolitan El Paso, and southern New
Mexico. Id. at ¶ 4. BNHR's mission is to “organize
border communities through human rights education” and “mobilize [its] members to advocate for
positive change in policies” affecting “the immigrant
community.” Id. at ¶ 3. To fulfill that mission,
BNHR “educate[s] [its] own members about their
rights” and “train[s] them to educate and organize
other members of the immigrant community.” Id. It
also works to forge bonds between its members and
the area’s law-enforcement officials. Id. at ¶ 10.
BNHR claims that the Proclamation has impaired
its organization’s mission and caused it to expend
an additional $23,956 to combat the unlawful conduct. Id. at ¶¶ 16, 21; see also id. at ¶¶ 13, 37, ECF
No. 55-27 (explaining that BNHR has "divert[ed] resources” away from its core mission toward “counsel[ing] members who are fearful,” “organizing [its]

24a
community in opposition to the President’s declaration,” and “opposing the illegal [border wall] construction.”).
In addition to draining and diverting resources,
BNHR had to cancel the signature event, “Hugs Not
Walls,” for one of its “major initiatives” to build
trust between the immigrant community and law
enforcement. Id. at ¶ 32. Defendants argue that
there is an insufficient nexus between BNHR’s organizational activities and the Proclamation because the Proclamation does not actually inhibit
BNHR from carrying out its organizational mission,
neither by imposing barriers nor by neglecting a legal duty. Cross-Mot. 40, ECF No. 95.
“An organization has standing to sue on its own
behalf if it meets the same standing test that applies to individuals.” Fowler, 178 F.3d at 356. In Havens Really Corp. v. Coleman, the Supreme Court
held a “housing counseling service” whose organizational mission included “the investigation and referral of complaints concerning housing discrimination” met that test, enabling it to challenge defendants’ “racial steering practices.” 455 U.S. 363, 379
(1982). Havens Realty Corporation sent testers to
an apartment complex in order to determine
whether it practiced unlawful “racial steering,” and
subsequently sued to challenge the practice it discovered. Id. at 363. The Supreme Court found sufficient the organization's allegation that it “had to devote significant resources to identify and counteract” defendants’ unlawful practices. Id. If defendants’ “practices have perceptibly impaired [the or-

25a
ganization’s] ability to provide” its services, the Supreme Court explained, “there can be no question
that the organization has suffered injury in fact.”
Id. “Such concrete and demonstrable injury to the
organization’s activities—with the consequent
drain on the organization’s resources—constitutes
far more than simply a setback to the organization’s
abstract social interests.” Id.
Applying Havens Realty, the Fifth Circuit has
announced the following rule: “an organization has
standing to sue on its own behalf where it devotes
resources to counteract a defendant’s allegedly unlawful practices.” Fowler, 178 F.3d at 360; see also
Scott v. Schedler, 771 F.3d 831, 837 (5th Cir. 2014).
In Scott, the Fifth Circuit held that the Louisiana
NAACP had standing to challenge Louisiana’s alleged failure to comply with the National Voter Registration Act. 771 F.3d at 837. Because one NAACP
member “devoted resources to counter[acting] [the
State’s] allegedly unlawful practices” by conducting
“voter-registration drives,” the NAACP “suffered injury in fact.” Id.
In a similar vein, the Fifth Circuit held in OCAGreater Houston v. Texas that an advocacy organization had standing to challenge a Texas law restricting the “interpretation assistance that English-limited voters may receive.” 867 F.3d 604, 606
and 612 (5th Cir. 2017). The plaintiffs expended resources to educate members about the restrictions
so they could rely on the interpreter of their choice
at the polls. Id. at 612. Because the organization
“went out of its way to counteract the effect of

26a
Texas’s allegedly unlawful" restriction—for instance, by “educat[ing] voters” about it—the organization had suffered cognizable injury, even if that
“injury was not large.” Id.
However, absent such a direct impairment on its
mission caused by the challenged action, standing
does not exist whenever a public interest organization decides to spend money opposing a governmental policy of concern or the organization suffered a
“setback to [its] abstract social interests.” Id. (citing
Sierra Club v. Morton, 405 U.S. 727, 739 (1972) (explaining that “a mere interest in a problem, no matter how longstanding the interest and no matter
how qualified the organization is in evaluating the
problem, is not sufficient by itself . . .”) (internal
quotations omitted)).
The Fifth Circuit rejected a claim of organizational standing in NAACP v. City of Kyle, 626 F.3d
233 (5th Cir. 2010). There the plaintiff tried to
ground standing to challenge revised housing ordinances in a study it had commissioned regarding
the impact of the revisions, as well as lobbying efforts designed to persuade the defendant municipality not to implement the revised ordinances, but did
not explain how those efforts “differ from the HBA's
routine lobbying activities,” or “identif[y] any specific projects that the HBA had to put on hold or otherwise curtail in order to respond to the revised ordinances.” Id. at 238. The Kyle court also reaffirmed
that “redirect[ing] . . . resources to litigation and legal counseling in response to actions or inactions of
another party is insufficient to impart standing
upon the organization.” Id. (quoting La. ACORN

27a
Fair Hous. v. LeBlanc, 211 F.3d 298, 305 (5th Cir.
2000).
Here BNHR has explained how its current expenditures differ from its routine activities and, unlike the plaintiff in Kyle, it has not merely redirected resources to litigation and legal counseling in
response to the Proclamation. In normal circumstances, BNHR dedicates its resources to “its core
mission” of human rights education and “promoting
immigration reform.” Garcia Decl. ¶ 13, ECF No. 5527. Because of Defendants’ emergency declaration
and attendant transfer of funds to build a wall, however, BNHR has had to “divert resources” away from
that core mission, and toward “counsel[ing] community members who are fearful,” “organizing [its]
community in opposition to the President’s declaration,” and “opposing the illegal [border wall] construction.” Id. at ¶¶ 13, 37.
In addition, BNHR has held and scheduled Proclamation-related weekend events that it would not
otherwise hold and has increased the frequency of
its “Know Your Rights” presentations approximately five-fold. Id. at ¶¶ 14-15. It has also hired
another policy consultant (costing $14,400) to deal
with its increased advocacy workload in light of the
Proclamation, and has sent delegations to discuss
the Proclamation’s effects with congressional members in Washington, D.C. Id. at ¶¶ 16, 19. In short,
as the organization's Executive Director stated in
his declaration, the Proclamation and Defendants’
subsequent actions have “required BNHR to expend
significant resources that could have, and would
have, gone elsewhere,” leading to a total of $23,956

28a
in additional organizational expenses. Id. at ¶¶ 16,
21.
Like the organizational plaintiffs in Havens Really, OCA-Greater Houston, and Scott, BNHR has
standing to challenge Defendants’ actions. As
shown, BNHR has gone “out of its way to counteract” those actions by diverting resources from its
traditional activities toward “counsel[ing]” and “organizing” community members in relation to the national emergency and border wall. OCA-Greater
Houston, 867 F.3d at 612; Garcia Decl. ¶¶ 13, 37,
ECF No. 55-27. And Defendants’ actions have inflicted “demonstrable injury to the organization’s
activities” because those actions have forced BNHR
to cancel initiatives, like the “Hugs Not Walls” campaign signature event, it would otherwise spearhead. Havens Realty, 455 U.S. at 379; Garcia Decl.
¶ 32, ECF No. 55-27.
All BNHR's organizational injuries, moreover,
have a “causal nexus” to Defendants’ actions, and
would be redressed if this Court were to enjoin those
actions. See Scott, 771 F.3d at 838-39. Defendants
raise the same arguments regarding causation and
redressability as brought up against El Paso
County, but BNHR similarly will be able to refocus
their resources on their core mission after summary
judgment and injunction in their favor. See supra
18. Thus, BNHR has standing and this case will not
be dismissed for lack of subject matter jurisdiction.

29a
3. Plaintiffs Have Standing to Sue Under §
2808.
Finally, Defendants initially argued that Plaintiffs lacked standing to challenge §2808 construction because the border barrier construction projects funded under § 2808 had not been decided.
Rapuano Decl. ¶¶ 5-7, ECF No. 95-7. At the time of
Defendants’ Cross-Motion the process was still ongoing as to which specific military construction projects would be authorized. Id. But on September 5,
2019, Defendants gave notice that the DOD had
made the final determination to divert $20 million
away from planned construction on “Defense Access
Roads” at Fort Bliss, to be used on building a wall
under § 2808. Supplemental Notice of DOD Decision
2, ECF No. 114.
A federal district court recently rejected Defendant’s same argument in Sierra Club v. Trump, 379
F. Supp. 3d 883, 907-08 (N.D. Cal. 2019) (reversed
on other grounds). A “future” pecuniary injury may
suffice so long as there is a “substantial risk that
the harm will occur.” Susan B. Anthony List v.
Driehaus, 573 U.S. 149, 158 (2014). Furthermore,
though standing may rest not rest on the independent actions of third parties, it may rest on “injury
produced by determinative or coercive effect upon
the action of someone else.” Bennett v. Spear, 520
U.S. 154, 169 (1997) (finding standing to challenge
an agency’s biological opinion that “ha[d] a powerful
coercive effect on the agency action. . . though the
action agency was technically free to disregard the
Biological Opinion... [all were] keenly aware of the

30a
virtually determinative effect of its biological opinions.”)
Especially considering the most recent developments, the Court agrees with the Plaintiffs that
they have standing to challenge Defendants’ use of
§ 2808 funds. Plaintiffs have demonstrated a “substantial risk” that Defendants will rely on § 2808 to
fund a border wall. Reply 11-12, ECF No. 101 (quoting Driehaus, 573 U.S. at 158). The Proclamation
expressly “invoke[s]” and “ma[kes] available” “the
construction authority provided in [§] 2808 of title
10.” Proclamation 1, ECF No. 55-14. And the same
day the President issued his Proclamation, the
White House identified the amount of § 2808 funds
“that will be available to build the border wall:” $3.6
billion. Facts Sheet 4, ECF No. 95-5. There is a substantial risk that the Acting Defense Secretary will
follow the President’s directive to use § 2808 funds
to build a border wall, rather than disregard it. See
Bennett, 520 U.S. at 169. The fact that the Acting
Secretary is “technically free to disregard the” Proclamation is irrelevant in light of its “virtually determinative effect” on his actions. Bennett, 520 U.S. at
170.
The Government’s position is made more implausible by the fact that the DOD has taken significant
steps toward building the border wall using § 2808
funds—namely identifying the deferred projects
that will serve as sources of the funding. See supra
22. That diversion of funds substantiates the
County’s “direct pecuniary injury” that suffices for
Article III standing. LeBlanc, 627 F.3d at 122. After
all, it takes funds from the “lifeblood of the El Paso

31a
economy,” and it eliminates jobs that new construction at Fort Bliss would have created. See Samaniego Decl. ¶¶ 14-16, ECF No. 55-26. Such “economic injur[ies] [are] quintessential injur[ies] upon
which to base standing.” Texas Democratic Party,
459 F.3d at 586. There is a more than substantial
risk that the DOD will use § 2808 funds on a border
wall, at Fort Bliss’s expense. Having established
that Plaintiffs have standing to challenge Defendants’ actions, the Court turns to the merits.
II. THE PRESIDENT'S PROCLAMATION IS
UNLAWFUL.
The Proclamation is unlawful because the funding plan violates the CAA generally and specifically
violates § 739. Because this disposes of the case, the
Court will not address the other merits arguments
raised, including the constitutionality of the Proclamation and the NEA, nor the Appropriations Clause
and Administrative Procedures Act claims.1 Following Rule 56 of the Federal Rules of Civil Procedure,
this Court will enter summary judgment because
“the movant [has shown] [ ]that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a); see Celotex, 477 U.S. at 322-23; Curtis, 710
Defendants do not repeat their arguments that Plaintiffs do not
fall within the zone of interests of the CAA, and even if they did
the Court agrees with the U.S. District Court for the Northern
District of California, which reasoned that when a plaintiff seeks
equitable relief against a defendant for exceeding its statutory
authority, the zone-of-interests test is inapposite. Sierra Club,
379 F. Supp. 3d at 910.

1

32a
F.3d at 594. Defendants agree with Plaintiffs that
this case presents legal questions for the Court to
resolve without the need for further factual development.
Finally, Plaintiffs have requested a preliminary
injunction, which is a matter of equitable discretion
and is “an extraordinary remedy that may only be
awarded upon a clear showing that the plaintiff is
entitled to such relief.” Winter v. Nat. Res. Def
Council, Inc., 555 U.S. 7, 22 (2008). Defendants
have countered that Plaintiffs cannot obtain equitable relief against the President. Cross-Mot. 20 and
23, ECF No. 95. The Court has requested additional
briefing on this issue arid will reserve judgment in
this regard for a later date.
1. Defendants’ Use of Funds to Build a Border
Wall Violates the Consolidated Appropriations Act.
To resolve this case, the Court turns to one of the
three golden rules of statutory construction “established from time immemorial” that “a more specific
statute will be given precedence over a more general
one.” Nevada v. Dep’t of Energy, 400 F.3d 9, 16 (D.C.
Cir. 2005) (quoting 1 Comp. Dec. 126, 127 (1894)
and Busic v. United States, 446 U.S. 398, 406
(1980)). This rule “appli[es] to appropriations bills.”
See id. Thus, “[a]n appropriation for a specific purpose is exclusive of other appropriations in general
terms which might be applicable in the absence of
the specific appropriation.” Id. (quoting 4 Comp.
Gen. 476, 476 (1924)). Applying this rule, the D.C.

33a
Circuit has held, for instance, that Congress’s specific appropriation of $1 million to Nevada for conducting “scientific oversight responsibilities” precluded a more general $190 million appropriation
for “nuclear waste disposal activities” from being directed to Nevada. Id.
Like the specific appropriation in Nevada, the
CAA specifically appropriates $1.375 billion for border-wall expenditures and requires those expenditures to be made on “construction. . . in the Rio
Grande Valley Sector” alone. CAA §§ 230, 231. Defendants’ funding plan, by contrast, will transfer
$6.1 billion of funds appropriated for other more
general purposes-military construction, under §
2808, and counterdrug activities, under § 284. Their
plan therefore flouts the cardinal principle that a
specific statute controls a general one and violates
the CAA. See Nevada, 400 F.3d at 16; United States
v. MacCollom, 426 U.S. 317, 321 (1976).
Defendants counter by pointing out that the CAA
does not modify any of the statutes at issue here
and, therefore, Congress did not intend to disable
the use of other available funding authorities. See
Cross-Mot. 54, ECF No. 95. The DOD Secretary may
exercise his discretion to spend because he is only
cabined by the text of the appropriation. Id. (citing
Salazar v. Ramah Navajo Chapter, 567 U.S. 182,
200 (2012) (quotation omitted). In absence of CAA
provisions that specifically alter the meaning or
availability of “permanent statutes” like § 284 and
§ 2808, it cannot be inferred that Congress meant to
restrict the use of other appropriated funds for similar purposes. Id. at 54-55 (citing Tennessee Valley

34a
Auth. v. Hill, 437 U.S. 153, 190 (1978) (“doctrine disfavoring repeals by implication applies with full
vigor when the subsequent legislation is an appropriations measure”)); see also Donovan v. Carolina
Stalite Co., 734 F.2d 1547, 1558 (D.C. Cir. 1984)
(“[W]hen appropriations measures arguably conflict
with the underlying authorizing legislation, their
effect must be construed narrowly.”)
However, Defendants’ reliance on Salazar v.
Ramah Navajo Chapter is misplaced. At issue in
that case is whether the Government must pay the
full amount of contract support costs when Congress
appropriates enough funds to pay in full any individual contractor’s contract support costs, but not
enough funds to cover the aggregate amount due
every contractor. Salazar, 567 U.S. at 185. Consistent with longstanding principles of government
contracting law, the Supreme Court held that the
Government must pay each tribe’s contract support
costs in full. Id. Defendants rely on dicta in this
case: “[in the absence of contrary language, the
grant of a specific appropriation cannot be read to
restrict the use of other appropriated funds for similar purposes pursuant to other statutory authority.” Cross-Mot. 54-55 (citing Salazar, 567 U.S. at
200), ECF No. 95.
But in Salazar the Supreme Court reasoned that
because Congress merely appropriated a lump-sum
amount (for tribes to pay contract support costs)
without a statutory restriction on what could be
done with those funds, a clear inference arose that
Congress did not intend to impose legally binding
restrictions. 567 U.S. at 200 (citing Lincoln v. Vigil,

35a
508 U.S. 182, 192). The Supreme Court cites Lincoln
v. Vigil, which underscores the conclusion that
“[t]he allocation of funds from a lumpsum appropriation is {an] administrative decision...committed to
agency discretion. After all, the very point of a
lump-sum appropriation is to give an agency the capacity to adapt to changing circumstances and meet
its statutory responsibilities in. . . the most effective. . . way.” Vigil, 508 U.S. at 192. However, the
CAA is not a lump sum appropriation without restrictions, and Defendants do not profess it to be
such. See CAA § 230. The CAA provides $ 1.375 billion for “the construction of primary pedestrian
fencing” in “the Rio Grande Valley Sector.” CAA §
230(a)(1). And it states that none of the funds appropriated by the Act can be used “for the construction of pedestrian fencing” in any of the five other
areas of the border. Id. § 231.
Moreover, in Salazar and Lincoln, the Supreme
Court makes much of the fact that the “indicia in
committee reports and other legislative history as
to how funds should or are expected to be spent do
not establish any legal requirements on the agency.”
567 U.S. at 200 (quoting 508 U.S. at 192). Here we
have far more than “indicia” or legislative history
establishing Congressional expectations as to how
the funds are spent: the plain text of the CAA restricts the amount and location of funding for border
barrier construction. See CAA § 230(a)(1), 231.
Defendants reliance on Tennessee Valley Authority v. Hill is similarly inapposite. 437 U.S. 153, 190
(1978) (“doctrine disfavoring repeals by implication
Cir. 1984)). However, the CAA does not conflict with

36a
any underlying authorizing legislation, rather the
Proclamation’s use of other legislation to commit
additional funds to border barrier construction conflicts with the CAA. Compare CAA § 230 with § 284,
2808. Donovan relies on Tennessee Valley Authority,
which is inapplicable as described above. See supra
26.
Donovan also relies on U.S. v. Langston, which
is illustrative of the problem with Defendants’ argument in general: Congress did not need to be prescient and specifically “alter” or repeal § 284 and §
2808 in order to limit border barrier funding to the
amount appropriated in the CAA. See 734 F.2d at
1558 (citing 118 U.S. 389 (1886)). In Langston, the
salary of the minister to Haiti was originally fixed
at the sum of $7,500. 118 U.S. at 394. Then subsequent acts appropriated $5,000 for his benefit, but
did not contain any language to the effect that such
sum shall be “in full compensation” for those years,
nor was there in either of the subsequent acts an
appropriation of money “for additional pay,” from
which it might be inferred that Congress intended
to repeal the act fixing his annual salary at $7,500.
Id. Repeals by implication are not favored, and the
Supreme Court—in 1886—was able to look to several precedents establishing this rule specifically in
the context of appropriations for public officials’ salaries. Id. at 392-93 (citing U.S. v. Fisher, 109 U.S.
143, 146 (1883); U.S. v. Mitchell, 109 U.S. 146, 149
(1883)). In contrast, this case presents an unprecedented issue, albeit with a familiar solution that the
Langston opinion recommends: the congressional
language in the CAA itself reveals Congress’s intent

37a
to limit the border barrier funding. See id. and CAA
§ 739. And nowhere is this made more apparent
than in § 739 of the CAA detailed below.
2. In Addition, the Proclamation Violates § 739.
CAA § 739 expressly forbids Defendants’ funding
plan. § 739 states:
None of the funds made available in this or
any other appropriations Act may be used to
increase. . . funding for a program, project, or
activity as proposed in the President’s budget
request for a fiscal year until such proposed
change is subsequently enacted in an appropriation Act, or unless such change is made
pursuant to the reprogramming or transfer
provisions of this or any other appropriations
Act.
§ 739 creates a general rule and an exception.
The general rule is that “[n]one of the funds made
available” in an "appropriations Act” (including the
CAA) “may be used to increase funding for a program, project, or activity” that was “proposed in the
President’s budget request for a fiscal year.” CAA §
739. The exception is that appropriations may be
used to increase such funding if that use is authorized by “the reprogramming or transfer provisions”
of an “appropriations Act.”
§ 739 prohibits Defendants’ plan to fund the border wall because the plan is barred by that provision’s general rule and the plan does not fall within
its exception. Defendants’ plan is barred by § 739’s
general rule, because it (1) seeks to use funds “made

38a
available in” an “appropriations Act”; (2) “to increase funding for a program, project, or activity”;
(3) that was “proposed in the President’s budget request for a fiscal year.”
First, Defendants’ plan seeks to use funds “made
available in” an “appropriations Act.” CAA § 739. It
taps appropriated military construction funds under § 2808 and counterdrug support funds under §
284. As the White House has acknowledged, all
funds have been “appropriated by Congress.” Fact
Sheet, https://www.whitehouse.gov/briefingsstatements/president-donald-jtrumps-border-securityvictory/. The Military Construction Appropriation
Acts dating back to 1982 “made available” the §
2808 military construction funds. See, e.g., Pub. L.
No. 97-106, 95 Stat. 1503; see also § 2808(a) (military construction projects “may be undertaken only
within the total amount of funds that have been appropriated for military construction”). And the DOD
Appropriations Act “made available” the § 284 counterdrug support funds. See Pub. L. No. 115-245
(2019). So while § 2808 and § 284 themselves are
not appropriations act, which is why they do not fall
within the § 739 exception (detailed below, infra 31),
they were “made available” by an appropriation act.
Second, Defendants’ plan also seeks to use these
appropriations to “increase funding for a program,
project, or activity.” CAA § 739. Construction of a
wall along the southern border is a singular “project” under that word’s ordinary meaning. See Merriam Webster’s Dictionary 932 (11th ed. 2003) (defining “project” as “a specific plan or design”) In-

39a
deed, the Executive Branch has consistently referred to the wall in this manner. In the first days
of his administration, the President signed an executive order stating that it is “the policy of the executive branch” to construct “a physical wall on the
southern border,” defined as “a contiguous, physical
wall, or other similarly secure, contiguous, and impassable physical barrier.” 82 Fed. Reg. 8793-94,
ECF No. 55-5, (2017). Likewise, on the day of the
President’s Proclamation, a White House fact sheet
announced that the Executive Branch would use
over $6 billion in additional funds to “build the border
wall.”
Fact
Sheet,
https://www.whitehouse.gov/briefings-stat
ments/president-donald-j-trumps-border-securityvictory/.
Third, funding for the border wall was “proposed
in the President’s budget request for a fiscal year.”
CAA § 739. On January 6, 2019, President Trump
formally requested $5.7 billion for fiscal year 2019
“for construction of a steel barrier for the Southwest
border.” Letter to Appropriations Chairman 1, ECF
No. 55-28. And he was denied, which led to the longest government shutdown in our country’s history.
See Pl.’s Mot. 4-5, ECF No. 54; see also Sierra Club,
379 F.Supp.3d at 892.
Next, Defendants’ funding plan is not saved by §
739’s exception: the funding increases it proposes
are not “change[s] . . . made pursuant to the reprogramming or transfer provisions of this or any other
appropriations Act.” Under federal law, an “appropriations Act” is an Act whose title begins: “An Act
making appropriations.” 2 U.S.C. § 622(5); 1 U.S.C.

40a
§ 105. Neither § 2808 nor § 284 begins with this language. § 2808 is a provision of the Military Construction Codification Act, Pub. L. No. 97-124, 96
Stat. 153 (1982), which says nothing about appropriations in its title, nor makes any appropriations
in its body. And § 284 is a provision of the National
Defense Authorization Act, Pub. L. No. 114-328, 130
Stat. 2000, 2381, 2497 (2016), which by title and
substance is not an “appropriations Act.” Cf Pub. L.
No. 115-31, 131 Stat. 135, 229 (2017) (separate statute appropriating DOD funds). The Proclamation
violates § 739 of the CAA.
CONCLUSION
El Paso County and Border Network for Human
Rights have standing to sue Defendants. Because
the Proclamation seeks additional funds for border
barrier funding in violation of the CAA generally
and § 739 of the CAA specifically, it is unlawful.
There is no genuine dispute as to any material fact,
so Plaintiffs are entitled to judgment as a matter of
law.
IT IS HEREBY ORDERED that Plaintiffs El
Paso County, Texas, and Border Network for Human Right’s “Motion for Summary Judgment or, in
the alternative, a Preliminary Injunction” is
GRANTED.
IT IS FURTHER ORDERED that Defendants
Donald J. Trump, Patrick M. Shanahan, Kirstjen M.
Nielsen, David Bernhardt, Steven T. Mnuchin, William Barr, John F. Bash, and Todd T. Semonite’s
“Cross—Motion to Dismiss or for Summary Judg-

41a
ment, and Opposition to Plaintiffs’ Motion for Summary Judgment and a Preliminary Injunction” IS
DENIED.
IT IS FINALLY ORDERED that Plaintiffs El
Paso County, Texas, and Border Network for Human Right shall FILE A PROPOSED PRELIMINARY INJUNCTION specifying the scope of said
injunction WITHIN TEN DAYS OF THIS MEMORANDUM OPINION and then Defendants Donald
J. Trump, Patrick M. Shanahan, Kirstjen M. Nielsen, David Bernhardt, Steven T. Mnuchin, William
Barr, John F. Bash, and Todd T. Semonite will be
given an opportunity to RESPOND WITHIN FIVE
DAYS.
SIGNED this 11th day of October 2019.
/s/
THE HONORABLE DAVID BRIONES
SENIOR UNITED STATES DISTRICT JUDGE

42a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
EL PASO DIVISION
EL PASO COUNTY, TEXAS
and BORDER NETWORK
FOR HUMAN RIGHTS,
Plaintiffs,
v.
DONALD J. TRUMP, in his
official capacity as President of the United States of
America, et al.,
Defendants.

§
§
§
§
§
§
§
§
§
§
§
§

EP-19-CV66-DB

MEMORANDUM OPINION
On October 11, 2019, the Court issued a Memorandum Opinion granting Plaintiffs El Paso County,
Texas, (“El Paso County”) and Border Network for
Human Rights’s (“BNHR”) (collectively, “Plaintiffs”)
“Motion for Summary Judgment or, in the alternative, a Preliminary Injunction” (“Motion for Summary
Judgment”) and denying Defendants1 Donald J.
Trump, Mark T. Esper, Chad F. Wolf, David Bernhardt, Steven T. Mnuchin, William Barr, John F.
Bash, and Todd T. Semonite’s (collectively, “Defendants”) “Cross-Motion to Dismiss or for Summary
In suits against a public officer in an official capacity who cease
to hold office while the action is pending, the officer’s successor
is automatically substituted as a party. Fed. R. Civ. P. 25(d).

1

43a
Judgment, and Opposition to Plaintiffs’ Motion for
Summary Judgment and a Preliminary Injunction.”
Mem. Op., ECF No. 129. Therein, the Court ordered
Plaintiffs to file a proposed preliminary injunction
specifying the scope of said injunction and Defendants
were given an opportunity to respond. Id. at 33.
On this day, the Court considered Plaintiffs’ “Supplemental Brief Addressing Scope of Remedy” (“Plaintiffs’ Supplemental Brief”) filed in the above-captioned case on October 21, 2019. ECF No. 130. The
Plaintiffs were granted leave to file an Amended Proposed Order on October 24, 2019. ECF No. 132. On
October 28, 2019, Defendants filed their “Supplemental Brief Addressing Scope of Remedy” (“Defendants’ Supplemental Brief”). ECF No. 134. After due
consideration, the Court is of the opinion that a declaratory judgment and permanent injunction shall
be granted in Plaintiffs’ favor.
BACKGROUND
On October 11, 2019, this Court held that Plaintiffs had standing to sue Defendants. Mem. Op. 32,
ECF No. 129. Further, it held that because the Presidential Proclamation on Declaring a National Emergency Concerning the Southern Border of the United
States (“the Proclamation”) seeks additional funds for
border barrier funding in violation of the 2019 Consolidated Appropriations Act (“CAA”) generally and §
739 of the CAA specifically, it is unlawful. Id.
In its opinion, the Court requested that Plaintiffs
“file a proposed preliminary injunction specifying the
scope of said injunction.” Id. at 33. In Plaintiffs’ Supplemental Brief, Plaintiffs ask the Court to:

44a
(1) issue a declaratory judgment that the
Proclamation is unlawful to the extent it authorizes border wall construction using funds
appropriated by the CAA for “military construction” under 10 U.S.C. § 2808, and that
Defendants’ use of funds appropriated by the
CAA for “military construction” under 10
U.S.C. § 2808 and “support for counterdrug
activities” under 10 U.S.C. § 284 funds on
building a border wall is unlawful; and
(2) permanently enjoin Defendants Esper,
[Wolf], Semonite, Bernhardt, and Mnuchin
(“the agency head Defendants”) from using
funds appropriated by the CAA for “military
construction” under § 2808 and “support for
counterdrug activities” under § 284 on building a border wall.
Pls.’ Supp. Br. 5-6, ECF No. 130.
Defendants counter in their Supplemental Brief
that the Court should decline to enter an injunction
and should exclude the Proclamation from the Court’s
declaratory relief. Defs.’ Supp. Br. 1, 2-3, ECF No.
134. Alternatively, if the Court did enter any injunctive relief, Defendants argue that it should enter an
administrative stay pending appeal. Id. at 13-14. The
Court disagrees with Defendants and will not stay its
decision to permanently enjoin their use of § 2808
funds for border barrier funding, though it will not extend this injunction to § 284 funds.
LEGAL STANDARDS
To obtain any injunction, a plaintiff must show:

45a
(1) that [they have] suffered an irreparable injury;
(2) that remedies available at law, such as monetary damages, are inadequate to compensate
for that injury;
(3) that, considering the balance of hardships
between the plaintiff and defendant, a remedy
in equity is warranted; and
(4) that the public interest would not be disserved by a permanent injunction.
Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139,
156-58 (2010); see also, e.g., eBay Inc. v. MercExchange, LLC, 547 U.S. 388, 391 (2006), and Winter2 v. Nat. Res. Def Council, 555 U.S. 7, 32-33 (2008).
“[I]njunctive relief is a drastic remedy, not to be applied as a matter of course.” O’Donnell v. Harris Cty.,
892 F.3d 147, 155 (5th Cir. 2018) (quoting Marshall v.
Goodyear Tire & Rubber Co., 554 F.2d 730, 733 (5th
Cir. 1977)) (internal quotations omitted).
Injunctive relief never “follow[ s] from success on
the merits as a matter of course,” Winter, 555 U.S. at
32, and, “[a]s with any equity case, the nature of the
violation determines the scope of the remedy.” Swann
v. Charlotte-Mecklemburg Bd. of Ed., 402 U.S. 1, 16
(1971). As such, an injunction “should be no more burdensome to the defendant than necessary to provide
complete relief.” Califano v. Yamasaki, 442 U.S. 682,
702 (1979); see also John Doe #1 v. Veneman, 380 F.3d

Throughout this opinion, the Court refers to those four factors
as the “Winter” or “permanent injunction” factors for sake of
brevity.

2

46a
807, 818 (5th Cir. 2004) (“The district court must narrowly tailor an injunction to remedy the specific action which gives rise to the order.”).
Furthermore, “[t]he existence of another adequate
remedy does not preclude a declaratory judgment that
is otherwise appropriate.” Fed. R. Civ. P. 57. A declaratory judgment is appropriate when it will “terminate
the controversy” giving rise to the proceeding. Fed. R.
Civ. P. 57 advisory committee’s 1937 note. It is within
the discretion of a trial court to grant declaratory relief on motion of party. Delno v. Market St. R. Co., 124
F.2d 965, 967 (9th Cir. 1942) (citing § 6 of the Uniform
Declaratory Judgment Act).
ANALYSIS
To begin, Plaintiffs argue that the Court should issue a declaratory judgment that the Proclamation’s
invocation of § 2808 and the Defendants’ use of §§
2808 and 284 funds on the border wall are unlawful.
Pls.’ Supp. Br. 2, ECF No. 130. This declaratory judgment and the permanent injunction would only need
to issue against the agency head Defendants, rather
than the President himself. Id. at 2 n.1.
Next, Plaintiffs assert that a permanent, rather
than preliminary, injunction should issue to stop the
agency head Defendants from using these funds for
border wall construction because the Court’s grant of
Plaintiffs’ Motion for Summary Judgment was a final
judgment ending the litigation on the merits. Id. at 3.
Finally, Plaintiffs go through the permanent injunction factors and describe how they meet each. Id. at 47.

47a
In response, Defendants call Plaintiffs’ requested
injunction overbroad and unjustified because Plaintiffs have failed to demonstrate irreparable injury and
the Government’s compelling interests in constructing border barriers outweigh the Plaintiffs’ interests.
Defs.’ Supp. Br. 1, ECF No. 134. And Defendants
claim that Plaintiffs’ proposed injunction conflicts
with the Supreme Court’s recent order staying an injunction that the District Court for the Northern District of California entered. Id. at 1-2 (citing Trump v.
Sierra Club, 140 S. Ct. 1 (2019)). Finally, Defendants
argue that the Proclamation should be excluded from
the Court’s declaratory judgment as there is no basis
for such extraordinary relief that would necessarily
run against President Trump in his official capacity.
Id. at 2-3.
Because both sides and the Court agree that any
declaratory judgment shall not run against the President, the Court does not address the merits of this argument. Instead, the Court discusses the merits of a
declaratory judgment against the agency head Defendants. Then, because the Court’s injunction § 2808
funds does not conflict with Supreme Court precedent, the Court weighs the permanent injunction factors to conclude that a permanent injunction shall be
granted in Plaintiffs’ favor, though more narrowly tailored than the injunction they propose on both §§ 284
and 2808 funds.
I. A Declaratory Judgment Shall Enter Against
the Agency Head Defendants.
Plaintiffs highlight that this Court expressly held

48a
that “[t]he Proclamation is unlawful” and “the funding plan violates the CAA generally and specifically
violates § 739.” Pls.’ Supp. Br. 2, ECF No. 130 (quoting Mem. Op. 24, ECF No. 129) (internal quotations
omitted). In accordance with that holding, Plaintiffs
argue that this Court should issue a declaratory judgment that the Proclamation is unlawful to the extent
it authorizes border wall construction using funds
that the CAA appropriated for “military construction”
under § 2808. Id. (citing 28 U.S.C. § 2201(a) (court
“may declare the rights and other legal relations of
any interested party seeking such declaration”); ECF
No. 52, at 47 (Plaintiffs seeking declaratory relief)).
And, according to Plaintiffs, the declaratory judgment
should state that the agency head Defendants’ use of
CAA funds appropriated for “military construction”
under § 2808, and “support for counterdrug activities”
under § 284 on building a border wall is unlawful. Id.
Defendants counter that “such an order would not
be appropriate in light of the Court’s merits determination, which did not conclude the Proclamation was
unlawful.” Defs.’ Supp. Mot. 13, ECF No. 134. Defendants highlight that this Court’s Memorandum Opinion only concluded that the use of § 2808 was inconsistent with the CAA. Id. Thus, according to Defendant, no declaratory judgment .should issue against
the Proclamation. Id.
A declaratory judgment is appropriate here because it will “terminate the controversy” giving rise to
the proceeding. See Fed. R. Civ. P. 57 advisory committee’s 1937 note. Contrary to Defendants’ argument, the conclusion in the Memorandum Opinion
reads: “[b]ecause the Proclamation seeks additional

49a
funds for border barrier funding in violation of the
CAA generally and § 739 of the CAA specifically, it is
unlawful. There is no genuine dispute as to any material fact, so Plaintiffs are entitled to judgment as a
matter of law.” Mem. Op. 32, ECF No. 129. It is within
this Court’s discretion to grant declaratory relief on
Plaintiffs’ motion. See Delno, 124 F.2d at 967 (citing §
6 of the Uniform Declaratory Judgment Act). Thus, a
declaratory judgment shall be granted in Plaintiffs’
favor against the agency head Defendants’ attempt to
use CAA funds appropriated for “military construction” under § 2808 for border wall construction above
and beyond the lawfully appropriated $1.375 billion.
CAA §§ 230, 231. However, it will not extend to the
CAA funds appropriated for “support for counterdrug
activities” under § 284, explained further below.
II. The Court’s Decision to Enjoin Does Not Conflict with Supreme Court Precedent.
Defendants point out that the Supreme Court has
already stayed an injunction issued by another district court prohibiting the DOD from proceeding with
the § 284 border barrier projects. Defs.’ Supp. Br. 7,
ECF No. 134 (citing Sierra Club, 140 S. Ct. 1). In issuing that stay, the Supreme Court determined that
the balance of the equities tipped in the Government’s
favor. Id. (citing Nken v. Holder, 556 U.S. 418, 434
(2009) (explaining that stay factors include irreparable injury, the balance of hardships, and the public
interest)); Sierra Club, 140 S. Ct. at 1. Consequently,
the Defendants argue that there is no basis for this
Court to issue an injunction regarding the § 284 projects that would effectively override the Supreme

50a
Court’s order. Defs.’ Supp. Br. 7, ECF No. 134. And
this Court agrees.
As acknowledged in this Court’s Memorandum
Opinion, the Supreme Court granted a stay in Defendants’ favor, reasoning “that the Government has
made a sufficient showing at this stage that the plaintiffs have no cause of action to obtain review of the
Acting Secretary’s compliance with [§] 8005.” Sierra
Club, 140 S. Ct. at 1. Because DOD Appropriations
Act, § 8005, authorizes the Secretary of the Department of Defense to transfer the $2.5 billion for § 284
Support for Counterdrug Activities, this Court found
Plaintiffs’ argument that the DOD Secretary exceeded his statutory authority under § 284 unviable.
Mem. Op. 6, ECF No. 129. However, this conclusion
and the Supreme Court’s decision do not mandate
that this Court is prohibited from enjoining the use of
§ 2808 funds to augment border wall funding in violation of the CAA. See id.
III. The Winter Factors Tip in Favor of Plaintiffs, so a Permanent Injunction Shall Issue
Against Defendants.
Plaintiffs ask the Court to issue a permanent injunction against the agency head Defendants from using § 2808 funds on a border wall, while Defendants
claim that Plaintiffs are not entitled to such relief because they cannot demonstrate irreparable injury,
and the balance of the equities and public interest
weigh against injunctive relief. Pls.’ Supp. Br. i, ECF
No. 130; Defs.’ Supp. Br. 4, 6, ECF No. 134.
Because Plaintiffs satisfy the four Winter factors,
the Court disagrees with the Defendants and issues a

51a
permanent injunction against the agency head Defendants’ use of additional § 2808 funds to fund border
barrier construction. After addressing the first Winter
factor, irreparable injury, the Court will tum to the
third and fourth factors, the balance of the equities
and public interest, respectively. Because Defendants
do not address the second Winter factor—that remedies available at law, such as monetary damages, are
inadequate to compensate for the injury—the Court
will agree with Plaintiffs’ argument that “[m]oney
damages cannot substitute for injunctive relief in this
case” without further discussion. Pls.’ Supp. Br. 4,
ECF No. 130 (citing Paulsson Geophysical Servs., Inc.
v. Sigmar, 529 F.3d 303, 313 (5th Cir. 2008)).
1. Plaintiffs Have Suffered Irreparable Injury.
Plaintiffs claim irreparable injury citing this
Court’s conclusion that Plaintiffs have standing due
to their reputational, economic, and organizational
injuries. Id. at 8 (citing Mem. Op. 9-22, ECF No. 129).
Further, according to the Plaintiffs, “[t]hose injuries
are irreparable absent an injunction: the County’s
reputational and economic harm will persist as long
as Defendants are allowed to carry out their plan to
build a wall; and BNHR will continue to divert resources to counteract Defendants’ unlawful actions as
long as those actions remain in effect.” Id.
First, Defendants attack the viability of reputational harm as the basis for an injunction. Defs.’ Supp.
Br. 4, ECF No. 134. Second, Defendants argue that
Plaintiffs’ economic injury is indirect and, thus, cannot form the basis for an injunction. Id. at 4-5. Finally,

52a
according to Defendants, BNHR’s reallocation of resources also does not justify an injunction. Id. at 5-6.
i. Plaintiffs have shown more than reputational
harm, which alone supports an injunction.
As an initial matter, Defendants assert that Plaintiffs have not submitted any evidence to establish that
they are injured by specific § 2808 projects that the
Department of Defense (“the DOD”) plans to undertake, as all of Plaintiffs’ declarations pre-date the Secretary of Defense’s decision. Id. at 4. This Court rejected this same argument in its Memorandum Opinion as it related to standing because there is more
than a substantial risk that the DOD will use § 2808
funds on a border wall, at Fort Bliss’s expense. Mem.
Op. 24, ECF No. 129.
However, Defendants argue. that standing is a
separate and independent inquiry than evaluating irreparable harm for an injunction, which requires separate and convincing proof. Defs.’ Supp. Br. 4, ECF
No. 134 (citing City of Los Angeles v. Lyons, 461 U.S.
95, 103 (1983); O’Shea v. Littleton, 414 U.S. 488, 499
(1974); White v. Carlucci, 862 F.2d 1209, 1212 (5th
Cir. 1989)). All the cases that Defendants cite for this
proposition are inapposite in this context as they involve distinguishable fact patterns and do not illustrate how the concrete injury facet of the standing inquiry is insufficient to satisfy the irreparable harm
requirement for equitable relief
First, Carlucci, involves an employment dispute
wherein respondent claimed Title VII plaintiffs did
not need to establish irreparable harm at all and the
Fifth Circuit merely held that irreparable harm was

53a
a requirement for an injunction to issue, not that concrete injury is insufficient to meet the test. 862 F.2d
at 1212. In Littleton, the Supreme Court distinguished between the case or controversy requirement
of standing and the irreparable injury Winter factoragain distinct from the assertion Defendants make
that the concrete injury requirement of standing is insufficient to establish irreparable injury. 414 U.S. at
499. Moreover, Littleton involved the particularly
fraught area of criminal prosecution and enjoining
state actors that enveloped distinct federalism issues,
not relevant to this case. Id. Likewise, in Lyons, the
Supreme Court distinguished between the case or
controversy requirement and irreparable injury; it did
not hold that concrete injury may never suffice to
show irreparable harm. 461 U.S. at 103. Distinguishing between the case or controversy requirement and
irreparable harm does not necessarily imply, as Defendants argue, that showing concrete injury is insufficient to show irreparable harm.
Furthermore, even if concrete injury did not suffice on its own, Carlucci illustrates that irreparable
injury is intimately linked with the second Winter factor. 862 F.2d at 1212. The. Supreme Court emphasized in Carlucci that the injuries all could be made
whole by money damages or other relief, thus were
not irreparable. Id. In contrast, the Plaintiffs here
will not be made whole with traditional remedies at
law—and Defendants do not contest this. See supra 8.
Next, Defendants cite Sampson v. Murray in
which “the Supreme Court recognized that reputational harm ‘falls far short of the type of irreparable
injury which is a necessary predicate to the issuance’

54a
of an injunction.” Id. (quoting 415 U.S. 61, 91-92
(1974)). Thus, according to Defendants, El Paso
County’s reputational injury from the President’s
proclamation itself cannot serve as the basis for injunctive relief against construction pursuant to statutory authorities dependent on that proclamation. Id.
However, the Court disagrees with Defendants’
analysis of Sampson v. Murray for two reasons. First,
Sampson dealt with a distinguishable factual situation involving a respondent who was a probationary
worker alleging humiliation and reputational harm
after being discharged without additional procedural
safeguards. 415 U.S. at 91. The Supreme Court highlighted that it was not the discharge itself that was
the harm, but “only that she was entitled to additional
procedural safeguards in effectuating the discharge.”
Id. The Court concluded “that no significant loss of
reputation would be inflicted by procedural irregularities in effectuating respondent’s discharge, and that
whatever damage might occur would be fully corrected by an administrative determination requiring
the agency to conform to the applicable regulations.”
Id.
Second, while the Court concluded that even assuming reputational damage did occur, it would not
suffice for irreparable injury, the Court added a footnote:
We recognize that cases may arise in which the
circumstances surrounding an employee’s discharge, together with the resultant effect on the
employee; may so far depart from the normal
situation that irreparable injury might be

55a
found. Such extraordinary cases are hard to define in advance of their occurrence. We have
held that an insufficiency of savings or difficulties in immediately obtaining other employment—external factors common to most discharged employees and not attributable to any
unusual actions relating to the discharge itself—will not support a finding of irreparable
injury, however severely they may affect a particular individual. But we do not wish to be understood as foreclosing relief in the genuinely
extraordinary situation. Use of the court’s injunctive power, however, when discharge of
probationary employees is an issue, should be
reserved for that situation rather than employed in the routine case.
Id. at 92, n.68 (citing Wettre v. Hague, 74 F. Supp. 396
(Mass. 1947); vacated and remanded on other
grounds, 168 F.2d 825 (1st Cir. 1948)).
Therefore, this Court refuses to extend the conclusion in Sampson to this case, especially when the Supreme Court was careful to confine its conclusions to
the facts of that case and specifically left open the possibility of irreparable injury in other employment situations with a “result[ing] effect on the employee[’s]”
reputation that warrants an injunction. See id. Far
from foreclosing injunctive relief from all entities suffering reputational harm, the Supreme Court carefully left open the possibility. See id.
Moreover, here El Paso County’s reputational
harm is distinguishable in important ways from
Sampson. To begin, El Paso County is far from a mere

56a
probationary worker entitled to less procedural safeguards than a permanent employee. Id. at 81. El Paso
County and BNHR are central stakeholders. See
Mem. Op. 9, ECF No. 129. Indeed, this Court concluded that El Paso County is the object of the Proclamation, entitled to protection from Defendants’ statutory violations. Id. And unlike the Supreme Court in
Sampson, this Court cannot summarily conclude
“that no significant loss of reputation would be inflicted by procedural irregularities in effectuating respondent’s discharge, and that whatever damage
might occur would be fully corrected by an administrative determination requiring the agency to conform to the applicable regulations.” 415 U.S. at 91.
This Court has already concluded that Plaintiffs’ reputational harm is significant. See Mem. Op. at 10-14.
ECF No. 129. Finally, unlike the plaintiff in Sampson
who had other recourse through the administrative
agency, Defendants do not contest the second Winter
factor that no other adequate remedies at law can
compensate Plaintiffs’ injury. See generally Defs.’
Supp. Br., ECF No. 134. While the reputational harm
alone is enough to satisfy the irreparable injury requirement, Plaintiffs also have demonstrated economic harm.
ii. Plaintiffs economic harm is irreparable absent an injunction.
Defendants next argue that El Paso County’s purported loss of tax revenue from the deferral of the
roads project at Fort Bliss also cannot support a finding of irreparable injury because it is a generalized
grievance insufficient to support standing. Id. at 4
(citing Iowa ex rel. Miller v. Block, 771 F.2d 347, 353

57a
(8th Cir. 1985)). Defendants claim that any decision
to the contrary would conflict with Wyoming v. Oklahoma, where the Supreme Court recognized standing
to challenge “a direct injury in the form of a loss of
specific tax revenues,” but distinguished cases where
“actions taken by United States Government agencies
[have injured their] econom[ies] and thereby caused a
decline in general tax revenues.” Id. at 4-5 (quoting
502 U.S. 437, 448 (1992)) (internal quotations omitted). In reaching that conclusion, the Supreme Court
emphasized that States must establish a direct link
between the tax at issue and the administrative action being challenged to meet the requirements for
Article III standing. Id. at 5 (citing Wyoming, 502 U.S.
at 448).
Defendants argue that the direct causal connection that the Supreme Court found critical to the finding of an injury in Wyoming is not present in this case,
as El Paso merely asserts generalized allegations of
harm resulting from reduced tourism and business
development, as well as the deferral of the roads project at Fort Bliss. Id. at 5. Defendants point to the affidavit of Judge Samaniego, who is responsible for the
County’s tax rate and budget, in which only the threat
of generalized “economic harm” is raised. Id. (citing
Decl. of Judge Samaniego ¶¶ 2, 16 ECF No. 55-26).
Defendants conclude that this is fatal to Plaintiffs’
claims and to their request for equitable relief. Id.
This Court has already rejected this argument because the diversion of resources from Fort Bliss can
hardly be described as generalized—it is directly tied
to the unlawful deferral of resources to border wall
funding in violation of the CAA. Mem. Op. 4, ECF No.

58a
129. Far from a general decline in tax revenue, Defendants will divert $20 million away from a planned
military construction project at Fort Bliss in El Paso
County. Supp. Notice of the DOD Decision 3, ECF No.
114. “Fort Bliss is the lifeblood of the El Paso economy,” contributing billions of dollars and creating
thousands of jobs. Samaniego Decl. ¶ 15, ECF. No. 5526. Losing funds that had been appropriated for use
at Fort Bliss “creates the imminent prospect of economic harm to El Paso County.” Id. ¶ 16. That loss of
funds also represents a missed opportunity to “obtain
a benefit,” which can also suffice to show injury in
fact. N.E. Associated Gen. Contractors v. City of Jacksonville, 508 U.S. 656, 666 (1993). Defendants recognize the legitimacy of this economic harm when they
contest the breadth of the Plaintiffs’ proposed injunction, but are forced to admit that “the absolute most
Plaintiffs are entitled to is an injunction prohibiting
DOD from using the $20 million in military construction funds initially associated with Fort Bliss.” Defs.
Supp. Br. 12-13. And in addition to the economic and
reputational harm of El Paso County, BNHR has also
suffered irreparable harm.
iii. BNHR’s organizational harm is irreparable
absent an injunction.
Defendants claim that BNHR’s diversion-of-resources theory fails to carry BNHR’s burden to show
irreparable injury in the absence of its requested injunction. Defs.’ Supp. Br. 5-6, ECF No. 134. In Defendants’ retelling, BNHR has not established that its
reallocation of resources has imposed concrete irreparable harm beyond simply undertaking a different
form of border policy advocacy. Id.

59a
This too the Court has already addressed to the
contrary in its Memorandum Opinion and does so
again here because BNHR has established irreparable injury. Mem. Op. 18-22, ECF No. 129. More than
being forced to undertake a different form of border
policy advocacy, BNHR’s resources have been drained
and diverted, as illustrated by the cancelation of a signature event and additional expenditures to counteract Defendants’ unlawful actions that differ from its
routine expenses. Id. at 18, 21. Because BNHR and El
Paso County have satisfied the first and second Winter factors, irreparable harm that cannot be treated
with traditional remedies at law, the Court will address the remaining factors.
2. The Balance of Equities and Public Interest
Weigh in Favor of Injunctive Relief.
Where, as here, the Government is a party to the
case, the third and fourth permanent injunction factors merge: the balance of the equities and public interest. See Nken v. Holder, 556 U.S. 418, 435 (2009).
Plaintiffs reiterate the irreparable injury facts described above, which would cause severe hardship absent an injunction and tips the balance of the equities
in their favor. See Pls.’ Supp. Br. 8, ECF No. 1 30.
Plaintiffs further argue that Defendants have no legitimate interest in taking actions that violate the
CAA, or in spending funds that Congress appropriated for purposes other than a border wall. Id. And
while the importance of border security should not be
minimized, according to Plaintiffs, that concern cannot override the public’s interest in the Executive
Branch complying with the law. Id. That is especially

60a
so when Congress—the People’s representatives—determined that securing the border required only
$1.375 billion, not $6.1 billion, to be spent on a wall.
Id. (citing Youngstown Sheet & Tube Co. v. Sawyer,
343 U.S. 579, 655 (1952)).
Defendants argue to the contrary that these factors tip in their favor because the Supreme Court has
recognized that the Government has “compelling interests in safety and in the integrity of our borders.”
Defs.’ Supp. Br. 6, ECF No. 134 (citing Nat’l Treasury
Emps. Union v. Von Raab, 489 U.S. 656, 672 (1989)).”
Defendants address § 284 and § 2808 projects separately.
i. § 284 construction shall not be enjoined.
Because the Court agrees with the Supreme
Court, as stated above, an injunction on the use of §
284 funds will not issue. See supra 7. However, Defendants largely repeat their arguments for why equity and public interest weigh against a permanent
injunction on both § 284 and § 2808 funding for border
wall construction. Defs.’ Supp. Br. 8, ECF No. 134.
Thus, the Court will address Defendants’ arguments
as they pertain to § 2808.
ii. § 2808 construction shall be enjoined.
Defendants argue that enjoining § 2808 projects
would prohibit the Government from taking critical
steps needed to prevent the continuing surge of illegal
drugs from entering the country through the southern
border. Defs.’ Supp. Br. 6, 7-9, ECF No. 134 (citing
United States v. Guzman-Padilla, 573 F.3d 865, 889
(9th Cir. 2009) (Government has a “strong interest

61a
[ ]” in “interdicting the flow of drugs” entering the
United States)). Defendants explain that these undisputed harms “plainly outweigh[ ]” Plaintiffs’ asserted
injuries arising from construction with § 2808 funds.
Id. (citing Winter, 555 U.S. at 26, 33). And according
to Defendants, Plaintiffs’ asserted reputational, economic, and organizational harms, which arise principally from the Proclamation’s message, have essentially no connection to the legal violation of the CAA
that the Court identified. Id. Given that, and in light
of Defendant’s self-proclaimed “weighty and undisputed interest in undertaking projects to assist with
drug interdiction at the southern border, it would be
an abuse of discretion for this Court to award the ‘extraordinary remedy’ of a permanent injunction on §
[2808 construction to provide Plaintiffs relief from the
specific violation the Court identified.” Id. at 7 (citing
Winter, 555 U.S. at 22).
Defendant’s first citation to Von Raab, see supra
15, is unpersuasive in this context because while the
Supreme Court did hold that the Government has
“compelling interests in safety and in the integrity of
our borders[,]” it did so in contrast to the less compelling privacy expectations of an armed customs officer
who had to submit to urine analysis. 489 U.S. at 672.
Likewise, Guzman-Padilla does not counsel a ruling
in Defendants’ favor as it was similarly decided
within a distinct Fourth Amendment context. 573
F.3d at 889 (9th Cir. 2009).
Drawing upon Guzman-Padilla for support, Defendants overstate this Court’s permanent injunction
as aimed at all § 284 projects—and impliedly § 2808
projects. See Defs.’ Supp. Br. 6, 8, ECF No. 134. Far

62a
from enjoining all § 2808 projects, this Court only enjoins the use of funds to increase funding in contravention of the fixed amount prescribed in the CAA.
See infra 20. Defendants are not prohibited from taking steps to prevent illegal drugs from entering the
country through the southern border, but they are
prohibited from violating the CAA. Id.
Next, Defendants liken Plaintiffs to the unsuccessful plaintiffs in Winter whose interests in whale
watching trips, observing marine mammals underwater, and conducting scientific research on marine
mammals was outweighed by both the Navy’s interest
and the public interest in sonar training exercises.
555 U.S. at 26. An injunction on these unique training
exercises would force the Navy to deploy unprepared
antisubmarine forces and, thus, jeopardize the safety
of the entire feet. Id. The Supreme Court was careful
to limit its holding because “[o]f course, military interests do not always trump other considerations, and
we have not held that they do.” Id.
Far from enjoining a unique or sole source of funding, which would make this case more analogous to
Winter, this injunction merely stops the unlawful augment of the funds that were already appropriated for
border wall funding. See Mem. Op. 32, ECF No. 129.
Finally, granting a preliminary injunction would not
“disserve the public interest.” PLs.’ Mot. Summ. J. 50,
ECF No. 54 (quoting Planned Parenthood of Gulf
Coast Inc. v. Gee, 862 F.3d 445, 479 (5th Cir. 2017).
To the contrary, because Defendants’ actions are unlawful and the people’s representatives—Congress—

63a
declined to augment the border wall budget as Defendants attempt, the public interest would be served
by halting them. Id.
Finally, Defendants argue that both the Government and the public have a compelling interest in ensuring that its military forces are properly supported
with necessary resources for successful missions.
Defs.’ Supp. Br. 7, ECF No. 134. Defendants cite Goldman v. Weinberger for the proposition that courts
must “give great deference to the professional judgment of military authorities concerning the relative
importance of a particular military interest.” 475 U.S.
503, 507 (1986). However, the Supreme Court was
careful in that case to limit its holding to the particular military context where First Amendment rights
are necessarily circumscribed. Id. So when it held
that the Air Force did not have to make an exception
to its dress code for religious apparel, it did so with
great deference to military judgment. Id. at 509. This
context is distinct from the present case and so is the
level of deference required. See id. at 507. Thus,
Plaintiffs satisfy all four Winter factors and a permanent injunction shall issue in their favor.
For the same reasons, Defendants do not have
compelling reasons justifying an administrative stay
of this decision as they have requested, though they
are free to pursue a stay pending appeal before the
Fifth Circuit. Defs.’ Supp. Mot. 13-14, ECF No. 134;
see Fed. R. App. P. 8.
3. A Permanent Injunction, Rather than Preliminary Injunction, Is Appropriate Here.
The Court granted Plaintiffs’ Motion for Summary

64a
Judgment, which is a final judgment that “ends the
litigation on the merits.” McLaughlin v. Mississippi
Power Co., 376 F.3d 344, 350 (5th Cir. 2004). When a
court grants a plaintiff summary judgment, a permanent-rather than preliminary-injunction should issue. See, e.g. , Dep’t of Texas, Veterans of Foreign Wars
v. Texas Lottery Comm’n, 760 F.3d 427, 441 (5th Cir.
2014) (en banc) (affirming summary judgment and
permanent injunction); Vais Arms, Inc. v. Vais, 383
F.3d 287, 296 (5th Cir. 2004) (same); Sierra Club v.
Trump, 2019 WL 2715422, at *6 (N.D. Cal. June 28,
2019) (granting summary judgment and permanently
enjoining border wall construction under § 8005). After all, there is no need to determine whether the
plaintiff is “likely to succeed on the merits” (as a court
does in a preliminary-injunction posture, see Pendergest-Holt v. Certain Underwriters at Lloyd’s of
London, 600 F.3d 562, 568-69 (5th Cir. 2010)) once the
court determines that the plaintiff has succeeded on
the merits. Because this Court granted Plaintiffs’
summary judgment and because Plaintiffs have met
all four Winter factors,. a permanent injunction is the
proper form of equitable relief.
IV. The Permanent Injunction on the Use of §
2808 Funds Beyond the $1.375 Billion in the
CAA Is Not Overbroad.
Defendants make much of the difference between
the Plaintiffs’ original and amended proposed injunction order, calling the latter especially overbroad.
Defs.’ Supp. Br. 9-10. The relevant portion of Plaintiffs’ original Proposed Order reads: the Defendants
“are enjoined from border wall construction using
funds appropriated by the 2019 Consolidated

65a
Appropriations Act for ‘military construction’ under 10 U.S.C. § 2808, and ‘support for counterdrug activities’ under 10 U.S.C. § 284.” Proposed Order 2,
ECF No. 130-1 (emphasis added). The Plaintiffs’
Amended Proposed Order reads: the Defendants “are
enjoined from border wall construction using funds
appropriated for ‘military construction’ under 10
U.S.C. § 2808, and ‘support for counterdrug activities’
under 10 U.S.C. § 284.” Amended Proposed Order 2,
ECF No. 131-1. The bold language has been taken out
and, according to Defendants, this shows that Plaintiffs are aware that an injunction is inappropriate because no “funds appropriated by the 2019 [CAA]” are
being used to carry out the disputed construction.
Defs.’ Supp. Br. 9 (citing Mem. Op. 30-31, ECF No.
129). Defendants go on to reargue the merits of the
CAA’s prohibition on additional funding for border
wall construction, limiting that prohibition to only
other provisions within the CAA itself. Id. The Court
disagreed in its Memorandum Opinion and continues
to uphold the “general principle of statutory interpretation” that “a more specific statute will be given precedence over a more general one,” which necessitates
an injunction against the unlawful augment of funds
for border wall construction. Mem. Op. 25, ECF No.
129 (quoting Nevada v. Dep’t of Energy, 400 F.3d 9, 16
(D.C. Cir. 2005)) (internal quotations omitted).
CONCLUSION
After succeeding on the merits of their claim at
summary judgment, Plaintiffs are entitled to a declaratory judgment against the agency head Defendants’
unlawful attempt to augment the CAA funds with §
2808 funds above the appropriated $1.375 billion. Far

66a
from conflicting with the Supreme Court’s decision in
Sierra Club, this Court’s decision is not based on
whether the DOD Secretary exceeded his statutory
authority under § 284 and, indeed, the Court deemed
Plaintiffs’ argument relying on this line of reasoning
invalid. Because Plaintiffs have demonstrated irreparable harm, an inability of traditional remedies at law
to rectify that harm, and the balance of the equities
and public interest weigh in their favor, they are entitled to a permanent injunction against Defendants’
use of § 2808 funds for border barrier construction.
IT IS HEREBY ORDERED that a DECLARATORY JUDGMENT ISSUE declaring the Proclamation 9844 of February 15, 2019, 84 Fed. Reg. 4949,
UNLAWFUL to the extent it authorizes agency head
Defendants Mark T. Esper, Chad F. Wolf, Todd T. Semonite, David Bernhardt, and Steven T. Mnuchin to
use § 2808 funds beyond the $1.375 billion in the 2019
Consolidated Appropriations Act for border wall construction.
IT IS FINALLY ORDERED that agency head
Defendants Mark T. Esper, Chad F. Wolf, Todd T. Semonite, David Bernhardt, and Steven T. Mnuchin are
PERMANENTLY ENJOINED from using § 2808
funds beyond the $1.375 billion in the 2019 Consolidated Appropriations Act for border wall construction.
SIGNED this 10th day of December 2019.
/s/
THE HONORABLE DAVID BRIONES
SENIOR UNITED STATES DISTRICT JUDGE

67a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-51144
EL PASO COUNTY, BORDER NETWORK FOR HUMAN RIGHTS,
Plaintiffs - Appellees Cross-Appellants
v.
DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, In his official capacity; MARK ESPER, SECRETARY, DEPARTMENT OF DEFENSE,
In his official capacity; CHAD F. WOLF, ACTING
SECRETARY, U.S. DEPARTMENT OF HOMELAND
SECURITY, In his official capacity; DAVID BERNHARDT, SECRETARY, U.S. DEPARTMENT OF
THE INTERIOR, In his official capacity; STEVEN T.
MNUCHIN, SECRETARY, U.S. DEPARTMENT OF
TREASURY, In his official capacity; TODD T. SEMONITE, In his official capacity as Commanding
General United States Army Corps of Engineers,
Defendants - Appellants Cross-Appellees
Appeals from the United States District Court
for the Western District of Texas
Before JONES, HIGGINSON, and OLDHAM, Circuit Judges.
PER CURIAM:

68a
The application for a stay of the district court’s injunction pending appeal is GRANTED. The Supreme
Court recently stayed a similar injunction from our
sister circuit. See Trump v. Sierra Club, 140 S. Ct. 1
(2019) (mem.); accord Sierra Club v. Trump, No. 1917501, slip. op. (9th Cir. Dec. 30, 2019). The Government is entitled to the same relief here for, among
other reasons, the substantial likelihood that Appellees lack Article III standing.
IT IS FURTHER ORDERED that Appellees’ motion to expedite appeal is DENIED.
IT IS FURTHER ORDERED that Appellees’ motion for oral argument to be scheduled no later than
March 2020 is DENIED.
IT IS FURTHER ORDERED that the unopposed
motion for leave to file Amicus Curiae brief of United
States Representative Andy Barr in support of Appellants’ motion for stay pending appeal of order granting injunction is GRANTED.
IT IS FURTHER ORDERED that the unopposed
motion for leave to file Amicus Curiae brief of Government Oversight, Incorporated, Christopher Shays,
Christine Todd Whitman, John Bellinger III, Samuel
Witten, Stanley Twardy, and Richard Bernstein in opposition to Appellants’ motion for stay pending appeal
of order granting injunction is GRANTED.
STEPHEN A. HIGGINSON, Circuit Judge, dissenting:
Although I agree with my colleagues that this matter presents “a substantial case on the merits” and involves a “serious legal question,” Ruiz v. Estelle, 666

69a
F.2d 854, 856 (5th Cir. 1982) (citation omitted), I am
unable to agree, without focused panel deliberation
and discussion—possibly aided by dialogue with counsel—that the government presently has shown either
a likelihood of success on the merits or irreparable
harm in the absence of a stay, Nken v. Holder, 556
U.S. 418, 434 (5th Cir. 2009). Therefore, I dissent.
Regardless, I would expedite merits assessment by
our court. The district court’s analysis is comprehensive and probing, granting parsed relief enjoining the
Department of Defense from using funds under 10
U.S.C. § 2808 while simultaneously declining to enjoin the use of border-construction funds under 10
U.S.C. § 284. El Paso County v. Trump, 407 F Supp.
3d 655 (W.D. Tex. 2019). That ruling implicates several weighty issues that animate my desire to expedite. These include threshold jurisdictional issues of
county and organizational standing; merits issues implicating Executive military authority and Congress’s
prohibitory Spending Clause authority; the Ninth
Circuit’s recent denial of a motion to lift a stay of a
“substantially similar injunction,” Sierra Club v.
Trump, No. 19-17501, slip. op. (9th Cir. Dec. 30,
2019); and the Supreme Court’s stay of a related but
distinct injunction in Trump v. Sierra Club, 140 S. Ct.
1 (July 26, 2019) (mem.). Amici have already entered
the case, demonstrating the importance of the issues.
This constellation of sensitive and complex legal questions, all in the context of a nationwide injunction,
warrant expediting the appeal for prompt consideration of the merits.

70a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
Consolidated Appropriations Act, 2019, Pub.
L. No. 116-6, div. A, § 230.
SEC. 230. (a) Of the total amount made available
under ‘‘U.S. Customs and Border Protection—Procurement, Construction, and Improvements’’,
$2,370,222,000 shall be available only as follows:
(1) $1,375,000,000 is for the construction of
primary pedestrian fencing, including levee pedestrian fencing, in the Rio Grande Valley Sector;
(2) $725,000,000 is for the acquisition and deployment of border security technologies and trade
and travel assets and infrastructure, to include
$570,000,000 for non-intrusive inspection equipment at ports of entry; and
(3) $270,222,000 is for construction and facility improvements, to include $222,000,000 for humanitarian needs, $14,775,000 for Office of Field
Operations facilities, and $33,447,000 for Border
Patrol station facility improvements.
(b) The amounts designated in subsection (a)(1)
shall only be available for operationally effective designs deployed as of the date of the Consolidated Appropriations Act, 2017 (Public Law 115– 31), such
as currently deployed steel bollard designs, that prioritize agent safety.
(c) Not later than 180 days after the date of the
enactment of this Act, the Secretary of Homeland

71a
Security shall submit to the Committee on Appropriations of the Senate, the Committee on Appropriations of the House of Representatives, and the
Comptroller General of the United States an updated risk-based plan for improving security along
the borders of the United States that includes the
elements required under subsection (a) of section
231 of division F of the Consolidated Appropriations
Act, 2018 (Public Law 115–141), which shall be
evaluated in accordance with subsection (b) of such
section.
Consolidated Appropriations Act, 2019, Pub.
L. No. 116-6, div. D, § 739.
SEC. 739. None of the funds made available in
this or any other appropriations Act may be used to
increase, eliminate, or reduce funding for a program, project, or activity as proposed in the President’s budget request for a fiscal year until such
proposed change is subsequently enacted in an appropriation Act, or unless such change is made pursuant to the reprogramming or transfer provisions
of this or any other appropriations Act.
Department of Defense Appropriations Act,
2019, Pub. L. No. 115-245, div. A, § 8005.
SEC. 8005. Upon determination by the Secretary
of Defense that such action is necessary in the national interest, he may, with the approval of the Office of Management and Budget, transfer not to exceed $4,000,000,000 of working capital funds of the
Department of Defense or funds made available in
this Act to the Department of Defense for military
functions (except military construction) between

72a
such appropriations or funds or any subdivision
thereof, to be merged with and to be available for
the same purposes, and for the same time period, as
the appropriation or fund to which transferred: Provided, That such authority to transfer may not be
used unless for higher priority items, based on unforeseen military requirements, than those for
which originally appropriated and in no case where
the item for which funds are requested has been denied by the Congress: Provided further, That the
Secretary of Defense shall notify the Congress
promptly of all transfers made pursuant to this authority or any other authority in this Act: Provided
further, That no part of the funds in this Act shall
be available to prepare or present a request to the
Committees on Appropriations for reprogramming
of funds, unless for higher priority items, based on
unforeseen military requirements, than those for
which originally appropriated and in no case where
the item for which reprogramming is requested has
been denied by the Congress: Provided further, That
a request for multiple reprogrammings of funds using authority provided in this section shall be made
prior to June 30, 2019: Provided further, That transfers among military personnel appropriations shall
not be taken into account for purposes of the limitation on the amount of funds that may be transferred
under this section.

